Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   CALIFORNIA IMPROPERLY
 CLAIMED ENHANCED FEDERAL
REIMBURSEMENT FOR MEDICAID
  FAMILY PLANNING SERVICES
 PROVIDED IN ORANGE COUNTY


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                        July 2014
                                                      A-09-13-02044
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 California claimed at least $2.2 million for fiscal year 2012 in unallowable enhanced
 Federal reimbursement for Medicaid family planning services provided in Orange County.


WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General reviews found that multiple States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement. In California, we are conducting reviews
of family planning services provided under the Family Planning, Access, Care, and Treatment
(FPACT) program in several counties. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided in San Diego County.

The objective of this review was to determine whether the State agency complied with certain
Federal and State requirements when claiming Federal reimbursement at the 90-percent rate for
family planning services provided under the FPACT program in Orange County.

BACKGROUND

In California, the State agency administers the Medicaid program. The State agency’s FPACT
program extends Medicaid eligibility for family planning services to individuals of childbearing
age who reside in California and have incomes up to 200 percent of the Federal poverty level.
Individuals eligible for the FPACT program are generally not otherwise eligible for Medicaid.

The Centers for Medicare & Medicaid Services’ State Medicaid Manual states that Federal
reimbursement is available at the 90-percent rate only for services clearly provided for family
planning purposes. Under the California State plan, Federal reimbursement is available at the
regular FMAP for family-planning-related services provided as part of or as followup to a family
planning service. The regular FMAP was 50 percent during our audit period.

HOW WE CONDUCTED THIS REVIEW

From October 1, 2011, through September 30, 2012, the State agency claimed approximately
$22.9 million ($17.7 million Federal share) for family planning services provided under the
FPACT program in Orange County. Some of the claim lines were for the same family planning
service provided to a beneficiary on the same service date and billed on the same claim. We
grouped claim lines that had the same claim control number, beneficiary identification number,
date of service, and procedure code. For this report, we refer to these grouped claim lines as
unique “services.” We did not review approximately $1.3 million for services considered to be




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                     i
at low risk of being unallowable and for reimbursements determined to be immaterial. From the
remaining $21.6 million, we reviewed a random sample of 100 services.

WHAT WE FOUND

The State agency did not always comply with certain Federal requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
FPACT program in Orange County. Of the 100 sampled services, 74 complied and 26 did not
comply with requirements. Of the 26 services, 22 were ineligible for reimbursement because
they were not clearly provided for family planning purposes, and 4 were eligible for
reimbursement only at the regular FMAP because they were family-planning-related (provided
as part of or as followup to family planning services). On the basis of our sample results, we
estimated that the State agency claimed at least $2,280,044 in unallowable Federal
reimbursement.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for services clearly provided for family
planning purposes. Also, the State agency’s Medicaid Management Information System
(MMIS) lacked edits to prevent family-planning-related services from being claimed at the
90-percent rate.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund $2,280,044 to the Federal Government,

    •   establish billing procedures to ensure that only services clearly provided for family
        planning purposes are claimed for reimbursement at the 90-percent rate, and

    •   establish MMIS edits to ensure that FPACT claims meet Federal and State requirements
        for reimbursement at the 90-percent rate and at the regular FMAP for family-planning-
        related services.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency agreed that 9 of the 26 family planning
services were not clearly provided for family planning purposes or were family-planning-related
services eligible for reimbursement only at the regular FMAP and estimated that it would refund
$789,246 to the Federal Government. However, the State agency disagreed that the remaining
17 services for the testing or treatment of sexually transmitted infections that were not provided
as part of a family planning visit were unallowable. The State agency provided information on
actions that it had taken or planned to take to address our second and third recommendations.

We based our findings on the Federal requirements effective during our audit period. State
medical professionals reviewed the medical records for the 26 services that we determined did


Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                   ii
not comply with Federal requirements and concurred with our findings. In its comments, the
State agency did not say that we incorrectly identified the 17 services as testing or treatment of
sexually transmitted infections. For these reasons, we maintain that our findings and
recommendations are valid.




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                       iii
                                                     TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objective ..............................................................................................................................1

           Background ..........................................................................................................................1
                 Medicaid Program ....................................................................................................1
                 Medicaid Coverage of Family Planning Services ....................................................1
                 California’s Medicaid Family Planning Program ....................................................2
                 State Requirements for the Family Planning Program ............................................2

           How We Conducted This Review........................................................................................2

FINDINGS .......................................................................................................................................3

           Federal Requirements ..........................................................................................................3

           State Agency Did Not Comply With Federal Requirements for
             Family Planning Services .................................................................................................4
                  Services Were Not Clearly Provided for Family Planning Purposes ......................4
                  Family-Planning-Related Services Were Eligible for Reimbursement
                    Only at the Regular Federal Medical Assistance Percentage ...............................4

RECOMMENDATIONS .................................................................................................................4

STATE AGENCY COMMENTS ....................................................................................................5

OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................................5

APPENDIXES

           A: Related Office of Inspector General Reports .................................................................6

           B: Audit Scope and Methodology.......................................................................................7

           C: Statistical Sampling Methodology .................................................................................9

           D: Sample Results and Estimates .....................................................................................11

           E: State Agency Comments ..............................................................................................12




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                                                                   iv
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Family planning services prevent or delay pregnancy or otherwise control family size. Federal
law and regulations authorize Federal Medicaid reimbursement to States for family planning
services at an enhanced Federal medical assistance percentage (FMAP) of 90 percent (90-percent
rate). Previous Office of Inspector General (OIG) reviews found that multiple States improperly
claimed reimbursement at the 90-percent rate for services that were eligible only for the regular
FMAP or were ineligible for Federal reimbursement. In California, we are conducting reviews
of family planning services provided under the Family Planning, Access, Care, and Treatment
(FPACT) program in several counties. One of those reviews found that the California
Department of Health Care Services (State agency) claimed approximately $5.7 million in
unallowable Federal reimbursement for family planning services provided in San Diego County. 1
(Appendix A lists related OIG reports on States’ claims for family planning services.)

OBJECTIVE

Our objective was to determine whether the State agency complied with certain Federal and State
requirements when claiming Federal reimbursement at the 90-percent rate for family planning
services provided under the FPACT program in Orange County.

BACKGROUND

Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

Medicaid Coverage of Family Planning Services

States must furnish family planning services and supplies to individuals of childbearing age who
are eligible under the State plan and desire such services and supplies (the Social Security Act
(the Act), § 1905(a)(4)(C)). Federal law and regulations authorize Federal reimbursement for
family planning services at the 90-percent rate (the Act, § 1903(a)(5), and 42 CFR
§ 433.10(c)(1)).

The CMS State Medicaid Manual (the Manual) states that family planning services include those
that prevent or delay pregnancy or otherwise control family size and may also include infertility
treatments (§ 4270). The Manual indicates that States are free to determine which services and

1
 California Improperly Claimed Enhanced Federal Reimbursement for Medicaid Family Planning Services
Provided in San Diego County, A-09-11-02040, issued December 20, 2012.


Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                        1
supplies will be covered as long as those services are sufficient in amount, duration, and scope to
reasonably achieve their purpose. However, only services and supplies clearly provided for
family planning purposes may be claimed for Federal reimbursement at the 90-percent rate.

Section 2303 of the Patient Protection and Affordable Care Act (ACA) amended section
1902(a)(10) of the Act to give States the option to offer family planning services and supplies to
individuals whose income does not exceed the eligibility level established by the State and
allowed for additional family-planning-related services. CMS’s State Medicaid Directors Letter
10-013, issued July 2, 2010, provides further guidance on the family-planning-related services
mentioned in the ACA.

California’s Medicaid Family Planning Program

In California, the State agency administers the Medicaid program. In accordance with the ACA,
the State agency’s FPACT program extends Medicaid eligibility for family planning services to
individuals of childbearing age who reside in California and have incomes up to 200 percent of
the Federal poverty level. Individuals eligible for the FPACT program are generally not
otherwise eligible for Medicaid.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process Medicaid claims for payment. The
expenditures related to the claims are reported on the Form CMS-64, Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program, for Federal reimbursement.
During our audit period, the regular FMAP for California was 50 percent.

State Requirements for the Family Planning Program

California’s State Plan Amendment (SPA) 10-014, effective July 1, 2010, included coverage of
family planning services and supplies and family-planning-related services. The SPA required
that the State agency deduct 13.95 percent from its total expenditures when claiming Federal
reimbursement to account for clients who receive family planning services but are not eligible
for public benefits under Federal law, such as nonqualified aliens.

According to the State agency’s Family PACT Policies, Procedures and Billing Instructions
Manual, the FPACT program requires family planning providers to bill for services using special
diagnosis codes, called S-codes. The S-code is based on the family planning method selected by
the FPACT client, such as oral contraceptive, contraceptive injection, or barrier method.

HOW WE CONDUCTED THIS REVIEW

From October 1, 2011, through September 30, 2012, the State agency claimed $22,872,207
($17,713,381 Federal share) for family planning services provided under the FPACT program in
Orange County. 2 Some of the claim lines were for the same family planning service provided to
a beneficiary on the same service date and billed on the same claim. We grouped claim lines that

2
 Our review did not include claims for family planning drugs and supplies, which will be covered in a future audit
of Orange County.


Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                                       2
had the same claim control number, beneficiary identification number, date of service, and
procedure code. For this report, we refer to these grouped claim lines as unique “services.” We
did not review $1,277,831 for services considered to be at low risk of being unallowable and for
reimbursements determined to be immaterial. From the remaining $21,594,376, we reviewed a
random sample of 100 services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B describes our audit scope and methodology, Appendix C describes our statistical
sampling methodology, and Appendix D describes our sample results and estimates.

                                               FINDINGS

The State agency did not always comply with certain Federal requirements when claiming
Federal reimbursement at the 90-percent rate for family planning services provided under the
FPACT program in Orange County. Of the 100 sampled services, 74 complied and 26 did not
comply with requirements. Of the 26 services, 22 were ineligible for reimbursement because
they were not clearly provided for family planning purposes, and 4 were eligible for
reimbursement only at the regular FMAP because they were family-planning-related (provided
as part of or as followup to family planning services). On the basis of our sample results, we
estimated that the State agency claimed at least $2,280,044 in unallowable Federal
reimbursement.

The overpayment occurred because the State agency did not have billing procedures to ensure
that it claimed reimbursement at the 90-percent rate only for services clearly provided for family
planning purposes. Also, the State agency’s MMIS lacked edits to prevent family-planning-
related services from being claimed at the 90-percent rate.

FEDERAL REQUIREMENTS

The Manual states that only services and supplies clearly provided for family planning purposes
may be claimed for Federal reimbursement at the 90-percent rate (§ 4270.B).

CMS’s State Medicaid Directors Letter 10-013 states that “family planning-related services are
medical diagnosis and treatment services that are provided pursuant to a family planning service
in a family planning setting” and are reimbursable at the State’s regular FMAP. The letter
further states: “Family planning-related services have historically been considered those services
provided in a family planning setting as part of or as follow-up to a family planning visit. Such
services are provided because they were identified, or diagnosed, during a family planning visit.”




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                     3
STATE AGENCY DID NOT COMPLY WITH FEDERAL REQUIREMENTS FOR
FAMILY PLANNING SERVICES

On the basis of our review of client medical records for 100 sampled services, we found that the
State agency did not comply with Federal requirements for 26 family planning services,
consisting of 22 services that were not clearly provided for family planning purposes and
4 family-planning-related services that were eligible for reimbursement only at the regular
FMAP. 3 Using our sample results, we estimated that the State agency claimed at least
$2,280,044 in unallowable Federal reimbursement.

Services Were Not Clearly Provided for Family Planning Purposes

Twenty-two services were not clearly provided for family planning purposes. Of these services,
17 were for the testing or treatment of sexually transmitted infections that were not provided as
part of a family planning visit, and 5 were for services provided for other non-family-planning
purposes (such as testing for a urinary tract infection). Because the services were not clearly for
family planning, they were not eligible for Federal reimbursement.

The State agency did not have billing procedures to ensure that it claimed reimbursement at the
90-percent rate only for services provided for family planning purposes. Specifically, the State
agency required providers to use S-codes as primary diagnosis codes, which allowed services
provided for purposes other than family planning to be incorrectly claimed as family planning.
The S-code is based on the family planning method selected by the FPACT client, not the
purpose of the service.

Family-Planning-Related Services Were Eligible for Reimbursement Only at the
Regular Federal Medical Assistance Percentage

Four services were family-planning-related but were improperly claimed at the 90-percent rate.
These services were followup visits to a previous family planning visit. Because the services
were family-planning-related services, they were eligible for Federal reimbursement only at the
regular FMAP. The amount that we disallowed was the difference between reimbursement at the
90-percent rate and reimbursement at the regular FMAP. The State agency’s MMIS lacked edits
to prevent family-planning-related services from being claimed at the 90-percent rate.

                                         RECOMMENDATIONS

We recommend that the State agency:

    •   refund $2,280,044 to the Federal Government,

    •   establish billing procedures to ensure that only services clearly provided for family
        planning purposes are claimed for reimbursement at the 90-percent rate, and


3
 During our audit, State medical professionals performed a medical review of the 26 services that we determined
did not comply with Federal requirements. The medical professionals concurred with our findings.


Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                                    4
    •   establish MMIS edits to ensure that FPACT claims meet Federal and State requirements
        for reimbursement at the 90-percent rate and at the regular FMAP for family-planning-
        related services.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our overall finding that
it did not comply with Federal requirements for family planning services. However, the State
agency agreed that 9 of the 26 family planning services were not clearly provided for family
planning purposes or were family-planning-related services eligible for reimbursement only at
the regular FMAP. Regarding our first recommendation, the State agency estimated that it
would refund $789,246 to the Federal Government. The State agency also provided information
on actions that it had taken or planned to take to address our second and third recommendations.

The State agency had the following comments on our specific findings:

    •   Regarding our finding that 22 services were not clearly provided for family planning
        purposes, the State agency partially agreed with our finding and the related (second)
        recommendation. The State agency disagreed that 17 services for the testing or treatment
        of sexually transmitted infections that were not provided as part of a family planning visit
        were unallowable and stated that it had requested CMS guidance and clarification on the
        criteria for family-planning-related services. However, the State agency agreed that the
        remaining five services were unallowable.

    •   Regarding our finding that four services were eligible for reimbursement only at the
        regular FMAP, the State agency agreed with our finding and the related (third)
        recommendation.

The State agency’s comments are included in their entirety as Appendix E.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

We based our findings on the Federal requirements effective during our audit period. State
medical professionals reviewed the medical records for the 26 services that we determined did
not comply with Federal requirements and concurred with our findings. In its comments, the
State agency did not say that we incorrectly identified the 17 services as testing or treatment of
sexually transmitted infections. We based our finding on the Manual, which states that only
services and supplies clearly provided for family planning purposes may be claimed for Federal
reimbursement at the 90-percent rate. Nothing in the medical records indicated that the services
were related to family planning, and the State agency provided no additional documentation.

CMS issued State Medicaid Directors Letter 14-003, effective April 16, 2014, which provides
guidance on services related to sexually transmitted infections. This guidance differs from State
Medicaid Directors Letter 10-013, issued July 2, 2010. Because we based our findings on the
CMS family planning guidance effective during our audit period, we maintain that our findings
and recommendations are valid.


Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                       5
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                                                                              Report          Date
                       Report Title                                           Number         Issued
Missouri Did Not Always Correctly Claim Costs for Medicaid                 A-07-12-01118   1/28/2014
Family Planning Drugs for Calendar Years 2009 and 2010

California Improperly Claimed Enhanced Federal                            A-09-12-02077    6/25/2013
Reimbursement for Medicaid Family Planning Drugs and
Supplies Provided in San Diego County

Missouri Did Not Always Correctly Claim Costs for Medicaid                A-07-12-01117    6/12/2013
Family Planning Sterilization Procedures for Calendar Years
2009 and 2010

Missouri Incorrectly Claimed Federal Reimbursement for          A-07-12-01121              3/13/2013
Inpatient Claims With Sterilization and Delivery Procedures for
Calendar Years 2009 and 2010

Arkansas Inappropriately Received Medicaid Family Planning                A-06-11-00022    1/18/2013
Funding for Federal Fiscal Years 2006 Through 2010

California Improperly Claimed Enhanced Federal                            A-09-11-02040    12/20/2012
Reimbursement for Medicaid Family Planning Services
Provided in San Diego County

Wyoming Incorrectly Claimed Enhanced Reimbursement for                    A-07-11-01100    8/17/2012
Medicaid Family Planning Sterilization Costs

North Carolina Incorrectly Claimed Enhanced Federal                       A-04-10-01091    6/15/2012
Reimbursement for Some Medicaid Waiver Services That Were
Not Family Planning

North Carolina Incorrectly Claimed Enhanced Federal                       A-04-10-01089    6/15/2012
Reimbursement for Some Medicaid Services That Were Not
Family Planning

Oregon Improperly Claimed Federal Reimbursement for         A-09-11-02010                  1/26/2012
Medicaid Family Planning Services Provided Under the Family
Planning Expansion Project

Review of Medicaid Family Planning Services Claimed Under                 A-09-10-02043    6/29/2011
the Oregon Health Plan During the Period October 1, 2006,
Through September 30, 2009




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                      6
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

From October 1, 2011, through September 30, 2012, the State agency claimed $22,872,207
($17,713,381 Federal share) for family planning services provided under the FPACT program in
Orange County, representing 663,782 claim lines. Some of the claim lines were for the same
family planning service provided to a beneficiary on the same service date and billed on the same
claim. We grouped claim lines that had the same claim control number, beneficiary
identification number, date of service, and procedure code, resulting in a total of 656,267 unique
services. We did not review 150,624 services, totaling $1,277,831, that were considered to be at
low risk of being unallowable or that had reimbursements determined to be immaterial. We
reviewed a random sample from the remaining 505,643 services, totaling $21,594,376.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we reviewed only those internal controls related to our objective. We limited
our review to determining whether the services provided to FPACT clients were eligible for
Federal reimbursement at the 90-percent rate. We did not determine whether the clients met the
eligibility requirements of the FPACT program.

We conducted our audit from March to November 2013 and performed our fieldwork at the State
agency’s office in Sacramento, California, and at provider locations in Orange County.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws, regulations, and guidance and the State plan;

    •   held discussions with CMS officials to gain an understanding of CMS guidance furnished
        to State agency officials concerning Medicaid family planning claims;

    •   held discussions with State agency officials to gain an understanding of State policies and
        controls for claiming Federal reimbursement for family planning services;

    •   obtained family planning claim data from the State agency’s MMIS for the period
        October 1, 2011, through September 30, 2012, representing 663,782 claim lines for
        family planning services provided in Orange County, totaling $22,872,207
        ($17,713,381 Federal share);

    •   grouped the 663,782 claim lines by claim control number, beneficiary identification
        number, date of service, and procedure code, which resulted in 656,267 unique services;

    •   removed 150,624 services, totaling $1,277,831, consisting of 84,569 services with
        reimbursements that we determined to be immaterial and 66,055 services we considered
        to be at low risk of being unallowable;


Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                    7
    •   created a sample frame consisting of the remaining 505,643 services, totaling
        $21,594,376;

    •   selected a simple random sample of 100 services to determine whether family planning
        services complied with certain Federal and State requirements by (1) contacting providers
        to obtain medical record information for each sampled service, (2) reviewing the medical
        record information to confirm the purpose of the client’s visit, and (3) discussing with
        State medical professionals those sampled services that we determined were unallowable
        for enhanced Federal reimbursement; and

    •   estimated the unallowable Federal reimbursement paid in the sampling frame.

See Appendix C for the details of our statistical sampling methodology and Appendix D for our
sample results and estimates.

To determine the State agency’s Federal share, we reduced the total amount claimed by the
CMS-approved deduction percentage of 13.95 percent (for clients who receive family planning
services but are not eligible for public benefits under Federal law) and then applied the
90-percent rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                  8
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of claim lines for Medicaid family planning services provided in
Orange County; paid by the State agency to providers from October 1, 2011, through
September 30, 2012; and claimed at the 90-percent rate under the FPACT program.

SAMPLING FRAME

The State agency provided us with a database of FPACT claims, from which we identified
663,782 claim lines for family planning services provided in Orange County, totaling
$22,872,207 for our audit period. Some of these claim lines were for the same family planning
service provided to a beneficiary on the same service date and billed on the same claim. We
grouped the claim lines by claim control number, beneficiary identification number, date of
service, and procedure code, which resulted in 656,267 unique services. From the resulting
656,267 services, we removed 66,055 services considered to be at low risk of being unallowable,
such as urine pregnancy tests. We established a materiality level of $5.00 or more and removed
84,569 services that had a reimbursement of less than this amount. After we removed these
services, the sampling frame consisted of 505,643 services totaling $21,594,376
($16,723,765 Federal share).

SAMPLE UNIT

The sample unit was a unique service, defined as one or more of the same family planning
procedure code billed on the same claim and for the same service date for a single beneficiary.

SAMPLE DESIGN

We used a simple random sample to test the services for allowability.

SAMPLE SIZE

We selected 100 sample units.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the OIG, Office of Audit Services (OAS), statistical
software.

METHOD FOR SELECTING SAMPLE UNITS

We consecutively numbered the sample units from 1 through 505,643. After generating
100 random numbers, we selected the corresponding frame items.




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                    9
ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable Federal reimbursement
paid.




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)               10
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                             Table 1: Sample Results (Total Amounts)

     Number of           Value of
                                                                       Number of    Value of
     Services in        Services in        Sample        Value of
                                                                       Unallowable Unallowable
     Sampling            Sampling           Size         Sample
                                                                        Services    Services
       Frame              Frame
       505,643          $21,594,376          100          $3,736                 26   $1,021


                        Table 2: Sample Results (Federal Share Amounts)

                         Value of
                                                                                   Value of
     Number of          Services in                      Value of
                                                                       Number of Unallowable
     Services in         Sampling          Sample         Sample
                                                                       Unallowable Services
     Sampling             Frame             Size         (Federal
                                                                        Services   (Federal
       Frame             (Federal                         Share)
                                                                                    Share)
                          Share)
        505,643         $16,723,765          100          $2,894                 26    $751


                       Table 3: Estimated Value of Unallowable Services
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                             Total Amount          Federal Share
                       Point estimate           $5,163,272            $3,796,329
                       Lower limit               3,189,093             2,280,044
                       Upper limit               7,137,452             5,312,613




Medicaid Family Planning Services in Orange County, California (A-09-13-02044)                   11
                                   APPENDIX E: STATE AGENCY COMMENTS 



       State of California-Health and Human Services Agency                                   Department of Health Care Services



                                             SECRETARY'S ACTION REQUESTED

         TO:                               Diana S. Dooley, Secretary
                                           Health and Human Services Agency

        FROM:                              Toby Douglas, Director
                                           Department of Health Care Services

        PREPARED BY:                       Sarah Hollister, Audit Coordinator
                                           Internal Audits

        DATE:                              March 25, 2014

         SUBJECT:                          Department of Health Care Services' response to the Office of Inspector
                                           General's draft report entitled, California Improperly Claimed Enhanced
                                           Federal Reimbursement tor Medicaid Family Planning Services in Orange
                                           County, Report Number A-09-13-02044.



                           IX! Request for Approval                             D   For Secretary's Information

                          D    Request for Discussion                           IX! For Secretary's Signature
                                                                                D For Governor's Information


        APPROVED:



              Toby Douglas
         Toby Douglas, Director                                                 Date
         Department of Hea lth Care Services



                    Robert Ducay for
         Diana S. Dooley, Secretary                                             Date
         Health and Human Services Agency




       OHCS 1053 (Revised 12/08)




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                                                   12
             DHCS' Response to Draft Report
             14-01 FPACT Orange County
             Page 2


             SU MMARY/PRO-CO N ARGU MENTS:

             Background
             In California, the State agency adm inisters the Medicaid program . The State agency's
             FPACT program extends Medicaid el igibility for family planning services to individua ls of
             childbearing age who reside in Californ ia and have incomes up to 200 percent of the
             Federa l poverty level. Individuals eligib le for the FPACT program are generally not
             otherwise eligible for Medicaid.

             The Centers for Medicare & Medicaid Services' State Medicaid Manual states that
             Federa l reimbursement is availab le at the 90-percent rate only for services clearly
             provided for fami ly planning purposes. Under the California State plan, Federal
             reimbursement is availab le at the regular FMAP for family-planning-related services
             provided as part of or as follow-up to a family planning service. The regular FMAP was
             50 percent during O IG's audit period.

             Summa ry of Findin gs
             The State agency did not always comply with certain Federal requirements when
             claim ing Federal reimbursement at the 90-percent rate for family planning services
             provided under the FPACT program in Orange County. Of the 100 sampled services, 74
             complied and 26 did not comply with requirements. Of the 26 serv ices, 22 were
             ineligible for reimbursement because they were not clearly provided for family planning
             purposes, and 4 were eligible for reimbursement only at the regular FMAP because they
             were family-planning-related (provided as part of or as follow-up to fam ily planning
             services). On the basis of the sample results, the OIG estimated that the State agency
             c laimed at least $2,280,044 in unallowab le Federal reimbursement.

             The overpayment occurred because the State agency did not have billing procedures to
             ensure that it claimed reimbursement at the 90-percent rate only for services clearly
             provided for fami ly planning purposes. In addition , the State agency's Medicaid
             Management Information System (MM IS) lacked edits to prevent family-planning-re lated
             services from being claimed at the 90-percent rate.

                • 	 Refund $2,280,044 to the Federal Government,
                • 	 Establish billing procedures to ensure that only services clearly provided for
                    family planning purposes are claimed for reimbursement at the 90-percent rate
                • 	 Establish MMIS edits to ensure that FPACT claims meet Federal and State
                    requirements for reimbursement at the 90-percent rate and at the regular FMAP
                    for family-planning related services.

             DHCS Response

             Please see attached




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                           13
             DHCS' Response to Draft Report
             14-01 FPACT Orange County
             Page 3



             EFFECTS ON EXISTING LAW: N/A

             ESTI MATED COST: Between $789,246 and $2,280,044

             TI ME FACTOR : Due to Agency by April2, 2014
                            Due to OIG by April 7, 2014.

             RECO MMENDATION: Approval




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)   14
             DHCS' Response to Draft Report
             14-01 FPA CT Orange County
             Page 4


                  Department of Health Care Service s Respon se to Office of the Inspector 

                                           General's Report titled: 

               California Improperly Claimed Enhanced Federal Reimbursement for Medicaid 

                            Family Pl anning Serv ic es Provided in Orange County 


             Finding #1: The State agency did not comply w ith Federal requirements for
             family planning service s.

             Based on OIG's review of client med ica l reco rds fo r 100 sampled serv ices, the OIG
             found that the State agency did not comply with Federal requirements fo r 26 fami ly
             planning services, consisting of 22 services that were not clearly provided for family
             planning purposes and 4 family-plann ing-related services that were e ligi ble for
             reimbursement only at the regular
             FMAP . Using their sample results, the O IG estimated that the State agency claimed at
             least $2,280,044 in unallowable Federal reimbursement.

             Rec ommendation: The OIG recommends DHCS refund $2,280,044 to the Federal
             Governmen t.

             Response: The Department of Health Care Serv ices (DHCS) disagrees with the
             finding and recommendation .

             DHCS has reviewed the sampling methodology, sampling results, findings, and
             est imates. DHCS ag rees that nine (9) of the 26 services were eithe r not clearl y
             provided for fami ly planning purposes, or were family planning-related services eligible
             only at the regula r FMAP. DHCS estimates a refund of $789,246 to the Federal
             Government.


             Finding #2 : Service s w ere not clea rl y provided for Family Planning purpos es .

             Twenty-two services were not clearly provided for a family planning purpose. Of these
             services, 17 were for the testing or t reatment of sexually transmitt ed infections (which
             were not provided as part of a fami ly plann ing visit), and 5 were for services provided for
             other non-family planning purposes (such as testing for a urinary tract infection).
             Because the services were not clearly for family planning, they were not e ligible for
             Federa l reimbursement.
             The State agency did not have billing procedures to ensu re that it claimed
             reimbursement at the 90-percent rate only for services provided for fam ily planning
             purposes. Specifically, the State agency required providers to use S-codes as primary
             diagnosis codes, which a llowe d services provided for purposes other than family
             planning to be incorrectly claimed as family planning . The S-code is based on the
             family planning method selected by the FPACT client, not the purpose of the service .




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                             15
             DHCS ' Response to Draft Report
             14-01 FPACT Orange County
             Page 5



             Recomm endation: The OIG recommends DHCS establish billing procedures to ensure
             that only services clearly provided for family planning purposes are claimed for
             reimbursement at the 90-percent rate.

             Response: DHCS partially agrees with the finding and recommendation .


             DHCS disagrees with part of Finding #2 regarding the 17 services that "were for the
             testing or treatment of sexually transmitted infections (STI), which were not provided as
             part of a family planning visit," pending further clarification from CMS on the criteria for
             family planning-related services (such as STI services) prov ided pursuant to a family
             planning visit.

             In April 2013, DHCS reached out to CMS for guidance and clarification on the distinct ion
             between family planning and family plann ing-related services and the sequencing of
             such services. DHCS asked CMS to clarify and confirm the allowable Federal Financial
             Participation (FFP) rate for family planning and family planning-related services. Finally,
             OHCS requested CMS guidance for the family planning policies to ensure a clear
             understanding of federa l requirements as they relate to the Family PACT program .
             DHCS has been recently informed by CMS that official clarifying gu idance is being
             drafted and is expected to be released in early 2014.

                • 	 DHCS agrees with the find ing regarding the five (5) services "provided for other
                    non-family-planning purposes." DHCS has implemented the following corrective
                    action plans.

             System Conversion from S-diagnosis Codes to ICD-9 Codes
             The DHCS, Office of Family Planning (OFP) has completed the system updates
             converting the local Fami ly PACTS-diagnosis codes (S-Codes) to ICD-9-CM codes,
             effective December 30 , 2013. This conversion to ICD-9-CM codes implement system
             edits to ensure appropriate billing by providers and FFP claiming by DHCS .
             Encounters primarily for fami ly planning will ca rry the family planning ICD-9-CM codes,
             and will be appropriately claimed at the enhanced FFP rate .
             Encounters primarily for fami ly planning-related services (such as treatment of
             complications from the use of contracept ive methods and treatment of an STI that was
             identified during a family planning visit) will be appropriately claimed at the regular
             FMAP rate.

             The Family PACT Policies. Procedures and Billing Instructions (PPBI) Manual

             The PPBI manual was revised to reflect the conversion from the local Family PACTS­
             Codes to ICD-9-CM codes. With the code conversion , current program policies were




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                            16
             DHCS' Response to Draft Report
             14-01 FPACT Orange County
             Page 6


             retained . Additionally , language in some of the PPBI sections was updated to clarify
             family planning and family planning-related policies. The revised PPBI manual was
             published on December 17, 2013.
             In April 2013, DHCS reached out to CMS for guidance and clarification on the distinction
             between family planning and fam ily planning-related services and the sequencing of
             such services. This guidance will inform further revisions to the Family PAC T PPBI
             manual, if warranted. DHCS has been recently informed by CMS that official clarifying
             guidance is being drafted and is expected to be released in early 2014.

             Continuing Educational Program for FPACT Providers

             OFP has launched a continuing educational program for Family FPACT providers to
             educate providers on the focus of the Family PACT program , what constitutes a family
             planning visit, and distinction between family planning and family planning-related
             services. The tra ining module has been in use since May 2012. The module was
             recently revised for the 2014 Provider Orientation and Update seminars, which started
             in February 2014. As indicated above , CMS guidance will inform further revisions to the
             Family PACT PPBI manual, if warranted , and updates to the continu ing educational
             training for Family PACT providers, as indicated.

             Program Integrity Activities

             The OFP has implemented several program integrity activities which assist in the
             processes for identification, collection, reporting , analysis and disposition of
             performance data and information on Family PACT providers and the provision of
             services. These activities allow OFP staff to regularly measure and monitor provider
             act ivities against the purpose of the Family PACT program and identify when an
             opportunity exists to improve the quality of program services. Such activities include,
             but are not limited to:

                        o 	 Provider Profiles: Biannual Provider Profiles provides data on OFP
                            ident ified indicators of utilization management and quality improvements
                            measures that are directly attributable to the Fam ily PACT provider. The
                            intent is to encourage the delivery of high-quality clinical services wh ile
                            promoting responsible use of funding resources.
                        o 	 Medical Record Review Report: A report of qua litative find ings, conducted
                            every three or four years to assess the quality of clinical care in the Family
                            PACT Program.
                        o 	 Audits by DHCS, Audits and Investigations (A& I): Routine audits are
                            conducted by A& I of Family PACT providers to ensure compliance with
                            program criteria and to recover overpayments, if indicated.

             In addition, OFP will be initiating the following activities:




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                             17
             DHCS' Response to Draft Report
             14-01 FPACT Orange County
             Page 7


                       o 	 Desk Review: Review and analysis of individual provider claims and
                           billing behavior based on current policy.
                       o 	 Onsite Provider Review: Onsite provider reviews based on information
                           co llected from desk reviews and provider profiles.

                • 	 DHCS disagrees with the finding regarding the 17 services that "were for the
                    testing or treatment of sexually transmitted infections which were not provided as
                    part of a family planning visit."

             In April 2013, DHCS requested CMS guida nce and clarification on the criteria fo r family
             planning-re lated services (such as STI services) provided pursuant to a family planning
             visit. DHCS has been recently informed by CMS that official clarifying guidance is being
             drafted and is expected to be released in early 2014.



             Finding #3 : Family Planning Related Se rvices were eligible for reimbursem ent
             only at the regular Federal Medical As sistance Percenta ge.

             Four services were family-planning-related but were improperly claimed at the 90­
             percent rate .
             These services we re fo llow up visits to a previous family planning visit. Because the
             services
             were family-planning-related services, they were eligible for Federa l reimbursement only
             at the
             regular FMAP. The amount that OIG disallowed was the difference between
             reimbursement at the 90-percent rate and reimbursement at the regular FMAP. T he
             State agency 's MMIS lacked edits to prevent family-plann ing-related services from
             being cla imed at the 90 -percent rate.

             Recommendation: The OIG recommends DHCS establish MMIS edits to ensure that
             FPACT claims meet Federal and State requirements for reimbursement at the 90­
             percent rate and at the regu lar FMAP for fam ily-planning-related services.

             Re sponse : DHCS agrees with the findi ng and recommendation.

             DHCS agrees with the finding regarding the four (4) "follow-up visits to a previous fam ily
             planning visit. Because the services were family-planning-related services, they were
             eligib le for Federal reimbursement only at the regular FMAP." OFP has MMIS edits in
             place, such as the MMIS 1703 Table (Fam ily PACT FFP Table for Procedure Codes)
             which is used to determine the FFP rate for the services covered under the Family
             PACT program . However, there are a few services that may be claimed at the 90­
             percent rate or at the regu lar FMAP rate, depending on the type of encounter.




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                           18
             DHCS' Response to Draft Report
             14-01 FPACT Orange County
             Page 8



             DHCS was in the process of developing an Operational Instruction Letter (OIL) to the
             Fiscal Intermediary (FI) with the instructions to update the system and discontinue the
             inappropriate c laim ing of 90-percent FFP for the few identified services. However, the
             development of the OIL was placed on hold pend ing the completion of the ICD-9 code
             conversion project. With the completion of the ICD-9 code conversion project, DHCS
             will proceed with moving forward with the development of the OIL. The State
             anticipates that a System Deve lopment Notice (SON) will need to be initiated to update
             the CA-M MIS system. The projected implementation of th is SON may take up to a year
             or longer, contingent upon the complexity of the changes required by the current
             system. The conversion to ICD-1 0 , currently in progress and is effective October 1,
             2014, may also impact the time line for this project.




.Medicaid Fconily Plcmning Services in Orcmge County, California (A-09-13-02044)                        19
